Department of Health and Human Services


                  OF' FICE       OF

   INSPECTOR GENERAL





Comparison of Ambulance Payments

Between Selected Canadian Provinces

        and the United States





                 SERVICEs.



                             JU GffBS BROWN
                             Inspector General
         1-

              1t"".             MARCH 1999
                               OEI- 09-95- 00414
                          OFFICE OF INSPECTOR GENERA


The mission of the Offce of Inspector General (DIG), as mandated by Public Law 95-452 , is to
protect the integrty of the Deparent of Health and Human Servces programs as well as the
health and welfare of beneficiares served by them. Ths statutory mission is cared out though
a nationwide program of audits , investigations, inpections , sanctions , and fraud alerts. The
Inspector Gen ral inorms the Secreta of program and management problems and recommends
legislative, reguatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Offce of Evaluation and Inpections (DEI) is one of severa components of the Office of
Inpector General. It conducts short-term management and progr evaluations (called


                                            s.
inspections) that focus on issues of concern to the Deparent, the Congress , and the public. The
inspection reports provide fidigs and recommendations on the effciency, vulnerabilty, and
effectiveness of deparenta progr

OEI's San Francisco Regional Offce prepared ths report under the diection ofKaye D. Kidwell
Regional Inspector General , and Paul A. Gottlober, Deputy Regional Inpector General.
Pricipal OEI staff included:


    GION

Deborah Harey,     Project Leader                          Tricia Davis Program Specialist
Robert Gibbons                                             Linda Moscoe
Cyntha Lemesh                                              Brian Ritchie
Donald Loeb                                                Barbara Tedesco
                                                           Stuar Wright




     To obtain copies of ths report ,   please call the San Francisco Regional Offce at 415-437- 7900.

           Reports are also available on the World Wide Web at our home page address:


                                   htt://ww . dhs. gov/progorgloei
 Department of Health and Human Services


                      OFFICE OF

    INSPECTOR GENERAL





Comparison of Ambulance Payments

Between Selected Canadian Provinces

       and the United States





                  , SERVICE
              +t-\'


                              JU GffBS BROWN
                              Inspector General
         '0



                 1t",,:W         MARCH 1999
                                OEI-09- 95- 00414
DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                        Offce of Inspector General

                                                                               Washington , D. C.   20201


                                          MAR I I 1999



The Honorable   Fortey Pete Stak
House of Representatives
Washigton, DC 20515

Dea Mr. Stak:

Than you for your contiued support of our work to promote effciencies and effectveness in
deparenta program and         parcularly to identi area of potential overpayments in the Medcare
program. As you commente in your December 1 , 1997 letr about the Offce of Inpectr
General' s work plan a signcat dierence may exst in ambulce payments beteen Canad and
the United States. As par of an ongoing study compar Medcae ambulance payments with those
of other payers , we obtaed ambulance rates for Britih Columbia, Onto, and Quebec and
compared the Canadian rates to the average Medcae payments for neaby States.

As you speculated, we found that the Medcae progra pays up to 70 percent more for ambulance
servces than two of the thee sampled provices. We believe tht the lower Candian costs
generally may be explaied by two factors: (1) Medcae s payment is based on the traditional
reasonable charge metodology rather    thactual cost , and (2) Canda s labor cost are lower
because personnel who staff ambulances are par-tie and comparable to basic and intennediate
emergency medcal techncian in the United States. These factors are explaied in more detal in
ths report.



If-you have any questons , pleae contact me or have your   st contact Helen Albert, Director
External Afairs , at (202) 260- 8610.




                                          June Gibbs Brown

                                          Inspector General


Enclosure

cc:	    Nancy-An Min DeParle

        Administrator

        Health Care Financing Admstration


        Melissa Skolfield

        Assistat Secreta for

            Public Affairs



        Richard J. Tarplin
        Assistat Secretary

            for Legislation
            COMPARISON OF AMBULANCE PAYMENTS

 BETWEEN SELECTED CANADIAN PROVINCES AND THE UNITED STATES

Medicare Par B payments for ambulance services have increased rapidly. Medicare s allowed
charges for ambulance services more than trpled between 1987 and 1996 , when Medicare
carers , the contractors that process Par B claims , allowed an "estimated $2 bilion for
ambulance servces in 1996. In a 1997 report , the Office of Inspector General found that
Medicare payments for ambulance servces often appeared inconsistent and ilogical. The report
cited many examples , includig cases where Medicare paid more for nonemergency basic life
support transport than for emergency advanced life support transport.

As par of an ongoing study on the comparson of ambulance payments between Medicare and
non-Medicare payers , we contacted three Canadian provinces to gather ambulance rates. We
compared the average payments for ambulance services in British Columbia, Ontaro , and
Quebec to the average payments for nearby States. We used the nearby States to maintai
geographical comparsons to the provices.

Medicare Pays up to 70 Percent More than Two of the Three Sampled Provinces

        Like Medicare , Canada s national health care system covers medically necessar
        ambulance transportation. Payment for ambulance services in Canada is based on the
        average cost of providing services , and both the province and the patient pay a share of
        the cost (except in Quebec where the province pays the entire cost for patients aged 65
        and over). In fact , patients in Canada are responsible for the entie ambulance bil if the
        trp is deemed medically unecessar. Although Canada does not distiguish between
        advanced life support and basic life support , most of the ambulance transports in the
        sampled provices are comparable to basic life support transport in the United States.


        Medicare uses a reasonable charge methodology to pay for ambulance services.
        Medicare pays 80 percent ofthe reasonable , i. , allowed , charge , and the beneficiar is
        responsible for the remaining 20 percent. Reasonable charge is the traditional payment
        method that Medicare has used since the program s inception. Under ths methodology,
        payment is based on the bil from ambulance suppliers. Carers , the contractors that
        process Par B claims , develop separate base rates for basic life support and advanced life
        support ambulances that reflect customar and prevailing charges in an area as well as
        separate rates for ambulance suppliers ' other charges , including mileage and supplies.
        For example , the maximum reasonable charge for mileage is the lowest of (1) the


         Office ofInspector General   Medicare Ambulance Payments, 
   November 1997
(OEI-05- 95- 00300).

          The  customary charge    is the amount that a supplier tyically charges. The prevailing charge
refers to a charge that falls within a range of charges submitted by suppliers in a partcular geographic
area.
      supplier s actual charge , (2) the supplier s customar charge for mileage , or (3) the
      prevailing charge for mileage in the area. The Health Care Financing Admstration
      authorizes carers to raise or lower the reasonable charge based on the concept of
       inherent reasonableness. " For example , if eharges are inated because oflack of
      competition or the charges are signficantly higher than acquisition costs , carers may
      lower payment.

      The table below compares rates in thee Canadian provinces to Medicare s allowed
      amounts in areas of the United States that are nearby or comparable in size to the thee
      provinces. Because Canada does not base rates on the tye of vehicle , we averaged
      Medicare allowed amounts for advanced life support and basic life support in the
      followig char. Medicare pays considerably more than British Columbia and Ontaro
      but slightly less than Quebec.

        Rate Comparison between Three Canadian Provinces and Medicare
         Canadian                Average               Average Medicare           Difference from
         Province            Canadian charge           allowed amount**           Canadian charge
     British Columbia                 $186                      $317                     70.4%
            Ontaro                    $163                      $246                     50.

            Quebec                    $299                      $291

    Note:
            We converted the rates for Canadian residents to U. s. curency. The conversion factor was
            $1 Canadian = $0. 68032 U.S. (rate on Apri2l , 1998)
            U.S. jursdictions near the Canadian provinces or comparable in size include the State of
            Washigton for comparson to the province of British Columbia; the States of Michigan
            Wisconsin, Minesota , and New York for comparson to Ontao; and the States ofVennont,
            Maine , New Hampshie , Massachusett , Connecticut, Rhode Island, and New York for
            comparson to Quebec.

    Source: Offce of Evaluation and Inspections analysis, 1998.


Lower Canadian Costs May Be Explained by Different Staffng Requirements

      Labor costs are the largest par of ambulance fixed costs. In British Columbia, for
      example , approximately 55 percent of the personnel on ambulances are par-time and
      comparable to basic and intermediate emergency medical techncians in the United
      States. Less than 5 percent of the full-time Canadian staff are comparable to a paramedic
      the highest-trained level of prehospital personnel. In the United States , ambulances
        tyically arestaffed with one emergency medical techncian and a paramedic , and most
        ambulance suppliers in urban areas employ two paramedics , thereby increasing personnel
        costs.

        In Canada, the mileage payment is bundled into the base rate, while most ambulance
        suppliers in the United States bil separately for the base rate , mileage , and supplies.
        Since Medicare does not reimburse suppliers at a standard national mileage rate , payment
        vares widely across the countr.




         0ffice ofInspector General   Medicare Ambulance Payments November 1997
(OEl- 05- 95- 00300).
